<html>
<title> - STATE AND LOCAL FUSION CENTERS AND THE ROLE OF DHS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
           STATE AND LOCAL FUSION CENTERS AND THE ROLE OF DHS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                 PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2006

                               __________

                           Serial No. 109-99

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
35-568                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007
                               __________



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)



                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut, and Chairman, Subcommittee on Emergency 
  Preparedness, Science, and Technology..........................     1

                               Witnesses
                                Panel I

Mr. Charles E. Allen, Chief Intelligence Officer, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4

                                Panel II

Colonel Kenneth Bouche, Deputy Director, Information & Technology 
  Command, Illinois State Police:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Ms. Amy Whitmore, Analyst Supervisor, Virginia Fusion Center, 
  Virginia State Police:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Richard L. Canas, Director, New Jersey Office of Homeland 
  Security and Preparedness:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22


           STATE AND LOCAL FUSION CENTERS AND THE ROLE OF DHS

                              ----------                              


                      Thursday, September 7, 2006

                          House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:20 p.m., in 
Room 2118, Rayburn House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons and Sanchez.
    Mr. Simmons. By unanimous consent, I request that this 
hearing of the subcommittee on Homeland Security Subcommittee 
on Intelligence Sharing and Terrorism Risk Assessment will come 
to order.
    Are there any objections?
    Hearing none, the subcommittee meets today to hear 
testimony on the Department's progress in implementing one of 
the most fundamental aspects of the Homeland Security Act of 
2002, specifically, how DHS intends to support State and local 
information sharing efforts.
    I will request that the reminder of my opening statement be 
placed in the record as if read, and I will simply share again 
with Mr. Allen my view that the success of fusion centers in 
many respects will be the benchmark of our success in securing 
the homeland, that this is one of the most innovative and 
critical developments that we have, and that we must succeed in 
this initiative if Federal, State, local and tribal entities 
are to be successful in sharing information to protecting 
people in a variety of different locations throughout the 
Nation.
    I note, Mr. Allen, that you agree with that. I hear some of 
the others nodding in agreement. So at this point I will ask 
our first witness, Mr. Charles Allen, to begin with his 
testimony.

STATEMENT OF CHARLES E. ALLEN, CHIEF INTELLIGENCE OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Thank you, Mr. Chairman.
    It is a great pleasure to be here. I have a very brief 
opening statement, and I request that my formal written 
statement be is entered into the record.
    Mr. Simmons. Without objection, so ordered.
    Mr. Allen. I would like to recognize some of my colleagues 
just briefly. First Mr. Jack DeMarcio, who is my Principal 
Deputy for Intelligence and Analysis, and who involves himself 
almost full-time reaching out to State and local governments, 
he is on the road most of the time, as well as my information 
manager, Dr. Carter Morris, who works closely with the 
information security environment program manager, Ted McNamara, 
and serves as a Department of Homeland Security representative 
on the Information Sharing Council, which Ambassador McNamara 
chairs. And also here is one of my colleagues, Mr. Chet Lunar, 
who is head of the DHA State and Local Government Directorate.
    New threats demand new strategies to prevent and counter 
potential terrorist attacks and other threats to the homeland. 
First responders and front line law enforcement officers must 
be armed with the information that will enable them first to 
recognize and then to defeat the threat.
    The Department of Homeland Security must similarly gain 
insights of local law enforcement and emergency personnel as 
they detect patterns that may involve threats to our homeland.
    Our State and Local Fusion Center plan, which I will talk 
about, is key to helping identify these threats, and is 
central, as you indicated, to our mission to secure the 
homeland. The processes and the programs we implement today 
with our State fusion centers will help us keep more secure for 
generations to come.
    Since 9/11, many State and local jurisdictions have 
recognized the need to improve their intelligence posture, and 
they have seen the value of creating fusion centers to do so. 
Fusion centers are interagency facilities designed by the 
States to maximize State and local ability to detect, prevent 
and respond to criminal and terrorist activity, and to recover 
from natural disasters. These centers compile, analyze and 
disseminate criminal information, threat assessments, and 
public safety, law enforcement and health information. They are 
becoming the centers of gravity for all hazards and all threats 
within the States.
    I recognized soon after my arrival at the Department of 
Homeland Security 11 months ago that the flow of information 
between DHS and the State and local authorities needed to be 
mutual, robust and seamless. This judgment had been reinforced 
by Secretary Chertoff's Second Stage Review conducted earlier, 
and by the Secretary's direction to me to reach out fully to 
State and local governments in the sharing of intelligence and 
intelligence-related information. As a consequence, we have 
been working closely with the program manager for Information 
Sharing Environment, again, Ambassador McNamara, and the 
Department of Justice on a framework, as required by 
Presidential guidelines, that will strengthen relationships 
between the national intelligence community and the State 
fusion centers.
    My Fusion Center plan, approved by Secretary Chertoff in 
2006, is a plan which, when implemented, I think will go a long 
way to meeting the Secretary's goal.
    I plan to embed DHS intelligence and operational 
professionals in State in local fusion centers. My plan has 
three guiding principles: First, build on existing DHS and 
Federal agency presence and established relationships with 
State and local authorities. These relationships serve both 
parties well, and I neither want to duplicate effort nor 
inadvertently jeopardize work in progress.
    Second, to recognize the particular needs and unique 
situation of each Fusion Center; one size does not fit all. 
Fusion centers were established to meet the individual needs of 
that center. We need to develop a collaborative, synergistic 
relationship with each one, one at a time, that benefits all 
parties concerned.
    Finally, we must move forward with mutual realistic 
expectations. Too often in the past we have raised expectations 
beyond the point where we can deliver. There is a clear and 
attractive value proposition for us and for the local 
jurisdictions, but I want to manage their and our own 
expectations. I want to promise only what we can deliver and 
expect that which each center can provide to us.
    My goal is to establish a mutually beneficial relationship 
with the State and local fusion centers. We will benefit from 
access to nontraditional information sources and a closer 
working relationship with the States. The States will benefit 
from improved information flow from DHS and among themselves.
    I have already deployed officers to support Los Angeles and 
New York City, as well as Louisiana, Georgia and Maryland, and 
I am pleased with the results I am seeing. Going forward, we 
are tailoring our efforts to meet the specific needs of each 
center.
    The process begins with an assessment conducted by a team 
from my office. The team spends a day or more as required at 
the center to understand its particular mission, information 
sources, analytic capacity, information technology 
infrastructure, security environment, and existing partnerships 
with other jurisdictions and other Federal agencies.
    My team also tries to meet with local FBI agents to discuss 
our plan and surface any issues of common concern. The 
assessment results in a set of recommendations to me concerning 
the staffing and services we can provide which will deliver 
value both to DHS and to the fusion center concerned.
    We have conducted amendments of 12 centers so far, and 
based on the results of these assessments I am planning to 
deploy intelligence officers during the first quarter of 2007 
to Arizona, Texas, New York, Virginia, Illinois, Florida and 
California.
    I also strongly believe that secure connectivity to the 
States is essential for this collaboration. I plan on deploying 
a collateral secret communication system everywhere I send an 
officer. Our collateral secret communication systems to the 
States, the Homeland Security Data Network, HSDN, is the analog 
of the Department of Defense secret Internet protocol network, 
or Supernet. In the first instance only my officers will have 
access, but I plan to expand access over time to personnel in 
the State fusion centers. I intend, by the first quarter of 
fiscal year 2007, to have HSDN installed everywhere I have an 
officer assigned to a fusion center.
    In conclusion, in close coordination again with Ted 
McNamara and the Department of Justice, I have developed an 
aggressive plan on behalf not only of DHS intelligence, but 
also the entire Department, that fundamentally changes our 
interactions with non-Federal partners, the State and local 
jurisdictions. I believe this is one of the most important 
initiatives that we can take to counter security threats to the 
homeland.
    At Secretary Chertoff's direction, I am moving now quickly 
to implement this plan. I want to keep you informed of my 
progress as we proceed. I welcome your questions.
    [The statement of Mr. Allen follows:]

                 Prepared Statement of Charles E. Allen

    Chairman Simmons, Ranking Member Lofgren, and members of the 
Committee, thank you for giving me the opportunity to discuss my plan 
to enhance intelligence and operational support to state and local 
authorities. As you know, since the tragic events of 9/11 many 
jurisdictions-states, some regions, and some cities-have established 
intelligence fusion centers. As the report of the 9/11 Commission 
states, the attacks were successful in part because "information was 
not shared. Analysis was not pooled. Effective operations were not 
launched." The result, said the Commission, was that analysts were 
unable to "connect the dots" that might have revealed the plot. Since 
then, the Federal Government as well as state and local authorities 
have taken steps to improve their intelligence posture, including the 
creation of fusion centers to more effectively share information.
    These centers-at which state and/or local officials work in close 
proximity with federal representatives to receive, integrate and 
analyze information and intelligence-encourage interagency cooperation 
and integrate intelligence into a system that can benefit homeland 
security and counter-terrorism programs at all levels.The states have 
created these centers to meet their own needs. Most states used the 
Global Fusion Center Guidelines as a basis for this development. These 
Guidelines, issued a year ago, were a collaborative effort between 
State, local, and tribal government officials, the private sector, the 
Department of Justice, and ourselves. That issuance, under DOJ 
auspices, made recommendations about the centers' law enforcement role, 
governance, connectivity standards, databases and security. Revised 
guidelines were issued last month addressing the role of public safety 
officials and the private sector in these centers. This revised 
guideline document also recommends that the fusion centers prepare for 
future connectivity with other state, federal and local systems.
    To date, 42 intelligence fusion centers have been established or 
are in the process of being established across the country. This number 
continues to grow. Ohio, for example, opened its' Strategic Analysis 
and Information Center in March; the Los Angeles Joint Regional 
Intelligence Center opened in July; and San Diego's Law Enforcement 
Coordination Center will open in November. As intended, these centers 
will maximize state and local abilities to detect, prevent, and respond 
to criminal and terrorist activity and recover from natural disasters 
by compiling, analyzing and disseminating criminal intelligence, threat 
assessments, and public safety, law enforcement, and health 
information. The success of these centers depends heavily upon the 
quality of the information they receive.
    I recognized early that the flow of information between DHS and the 
state and local authorities needed to be mutual, robust, and seamless. 
Fusion centers are recognized by the DNI as a center of gravity, key to 
the effective exchange and assessment of information between the 
Federal government and state and local partners. We have been working 
closely with the Program Manager for the Information Sharing 
Environment and the Department of Justice on a framework as required by 
Presidential guidelines that will strengthen and codify relationships 
and allow for an effective interface between the National Intelligence 
Community and fusion centers. The draft framework draws upon existing 
systems and capabilities, and mandates a coordinated and collaborative 
approach to sharing homeland security information, terrorism 
information, and law enforcement information with State, local, and 
tribal officials and the private sector. The draft framework will 
enable more effective and efficient sharing of this information both at 
the Federal level (between and among departments and agencies) and with 
State, local, and tribal governments and private sector entities.
    The Homeland Security Act and the Intelligence Reform and Terrorism 
Prevention Act give the Secretary--and he in turn delegates to me--
broad responsibilities and authority to provide intelligence support to 
state, local and tribal authorities and to the private sector, 
specifically in support of critical infrastructure protection and 
response and recovery efforts. With this in mind and understanding the 
centrality of state and local fusion centers--their particular 
information needs and their unique information access--I have developed 
a mechanism to link effectively these centers with our Department.
    My plan is to embed in the centers intelligence professionals whose 
responsibilities shall include ensuring robust, two-way, information 
sharing. The plan was the culmination of meetings with representatives 
across the Department, with outside input as required. The plan was 
approved by Secretary Chertoff on June 7. As I execute this plan, I 
will be working closely with the Department of Justice, Department of 
Defense, and other members of the Information Sharing Environment to 
ensure coordination and integration of effort.
    There are three guiding principles for our plan:

         First, build on existing DHS and Federal Agency presence and 
        established relationships with state and local authorities. For 
        example, an Immigration & Customs Enforcement, or ICE agent, is 
        currently embedded in the Upstate New York Regional 
        Intelligence Center (UNYRIC) in Albany, NY; eleven ICE agents 
        are already an integral part of the Arizona Counterterrorism 
        Intelligence Center (ACTIC) in Phoenix, AZ. These relationships 
        serve both parties well and I neither want to duplicate effort 
        nor inadvertently jeopardize work in progress.
         Second, recognize the particular needs and unique situation 
        of each fusion center-one size does not fit all. Individual 
        fusion centers were established to meet the individual needs of 
        the jurisdiction. We need to develop a collaborative, 
        synergistic relationship with each one--one at a time--that 
        benefits all parties concerned.
         Finally, we must move forward with mutual, realistic 
        expectations. Too often, in the past, we have raised 
        expectations beyond the point where we can deliver. There is a 
        clear and attractive value proposition, for us and for the 
        local jurisdictions, but I want to manage their and our own 
        expectations. I want to promise only what we can deliver and 
        expect only that which each center can provide to us.
    By following these principles I have no doubt that we will all 
receive value from the resources expended. For our part, I know we will 
benefit from an improved flow of information from the centers, and we 
can capitalize analytically on non-traditional information, which will 
ultimately result in improved situational awareness at the Federal 
level. We also will benefit from close and continuous consultation on 
state and local issues so that we can be more attuned to their needs 
and constraints.
    State and local authorities will, themselves, benefit from an 
improved information flow from DHS and through us from the National 
Intelligence Community. I expect, too, that the centers will make good 
use of the on-site intelligence expertise we will extend to them. The 
result cannot be other than improved intelligence analysis and 
production capabilities at the state and local level. In addition, 
these jurisdictions will be able to glean greater insight into Federal 
priorities and have a voice on national threat issues. Finally, they 
will have a clearly defined entry point into the Department of Homeland 
Security for intelligence issues.
    Already, I have officers to support Los Angeles and New York City 
as well as Louisiana, Georgia, and Maryland. I sense a profitable 
return on this investment, based on conversations that I have had with 
officials in Los Angeles and New York City, all of whom are positive 
about these arrangements.In accordance with our second guiding 
principle, tailoring our efforts to meet the specific needs of an 
individual fusion center is the key to success. The process begins with 
an in-depth assessment of each center by a team from my office. The 
team spends a day or more, as required, at the center to understand its 
particular mission, information sources, analytic capacity, information 
technology infrastructure, security environment, and existing 
partnerships with other local jurisdictions and other federal agencies. 
My team also tries to meet with local FBI officials to discuss our plan 
and surface any issues of common concern. The assessment results in a 
set of recommendations to me concerning the staffing and services we 
can provide which will deliver value to both DHS and the center. This 
information, along with additional information provided by DOJ, will 
inform a comprehensive assessment of Fusion center capabilities to be 
completed as part of the implementation of the Information Sharing 
Environment.
    To date, we have conducted assessments at a dozen fusion centers. 
These include:

         Columbus, OH-the Strategic Analysis and Information Center 
        (SAIC)
         Phoenix, AZ-the Arizona Counter Terrorism and Intelligence 
        Center (ACTIC)
         North Central TX-the North Central Texas Operations, Fusion 
        and Communications Center
         Albany, NY-the Upstate New York Regional Intelligence Center 
        (UNYRIC)
         Richmond, VA-the Virginia State Police, Bureau of Criminal 
        Intelligence Fusion Center
         Springfield, IL-the Statewide Terrorism Intelligence Center 
        (STIC)
         Tallahassee, FL-the Florida Fusion Center
         San Diego, CA-the Law Enforcement Coordination Center (LECC)
         Los Angeles, CA-the Joint Regional Intelligence Center (JRIC)
         San Francisco, CA-the Northern California Regional Terrorism 
        Threat Analysis Center (NC-RTTAC)
         Sacramento, CA-the Sacramento Regional Terrorism Threat 
        Analysis Center (Sacramento RTTAC)
         Sacramento, CA-the State Terrorism Threat Analysis Center 
        (STTAC)

    Based on the results of these assessments I am planning to deploy 
intelligence officers during the first quarter of FY 2007 to Arizona, 
Texas, New York, Virginia, Illinois, Florida, and California. These 
states have expressed interest in our increased engagement and support. 
I intend to continue using a fully transparent assessment process to 
determine future site staffing and support needs. By the end of Fiscal 
Year 2007 my goal is to have officers embedded in up to 18 fusion 
centers.
    It is my hope that DHS Intelligence can work with the states as 
both customers and collaborators in analytic efforts of mutual concern. 
Secure connectivity to the states is essential for this collaboration. 
I plan on deploying a collateral secret communications system 
everywhere I send an officer. Our collateral secret communications 
system to the states-the Homeland Security Data Network (HSDN)-is the 
analog of the Defense Department's Secret Internet Protocol Network. In 
the first instance, only my officers will have access, but I plan to 
expand access over time to state personnel. I intend, by the first 
Quarter of Fiscal Year 2007, to have HSDN installed everywhere I have 
an officer assigned to a fusion center.
    In conclusion, I am moving aggressively to implement the plan that 
Secretary Chertoff approved on June 7, 2006. We are changing, in 
fundamental ways, our interactions with our non-federal partners-the 
states and local jurisdictions. Creating and nurturing this information 
sharing network of fusion centers is one of the most important 
initiatives that we can take to protect this country from the scourge 
of terrorist attack. Each time I meet with the men and women who have 
established and who operate these centers, I am impressed by their 
professionalism, their ability, their ideas, and their accomplishments. 
Their enthusiasm is gratifying.Mr. Chairman, thank you again for giving 
me the opportunity to speak with you and the members of the Committee. 
I welcome your questions.

    Mr. Simmons. Thank you, Mr. Allen.
    One of the witnesses, who has submitted testimony that I 
hope we will hear from a little later, said the following in 
his testimony; ``I believe our fusion center is on the cusp of 
being the ultimate authority on the threats posed within our 
State by homegrown terrorists and other criminals, as well as 
the center that can best inform us on the response and 
mitigation of national disasters. That is how it should be. We 
should know more about our State than anyone else.''
    Do you concur in that statement?
    Mr. Allen. I believe that they are going to help keep this 
country extraordinarily safe in the future because I believe 
the first responders, whether they be policemen or firemen or 
emergency workers of every sort, they know their county, they 
know their cities, they know their State. They also know 
anomalies. And when they identify anomalies that could pose 
threats, I think we should be there helping them understand and 
report anomalies back to the Federal government.
    One of the things that we want to help and work with people 
like Ken Bouche, who represents Illinois State Police, is the 
fact that there is a lot of suspicious activity reporting. We 
need to learn how to read that, and we can only do that I think 
by jointly bringing our resources together, our knowledge, and 
also local knowledge of patterns and elements of behavior that 
are not always readily understood.
    When I talk to New York City, when I talk to Dave Cohen, it 
is clear that they have knowledge that we don't have. When I 
talk to Chief Bratton out in Los Angeles, it is clear--and to 
his senior people, it is clear that they see anomalies that we 
don't see. And it is important that we work this mutually 
obviously with law enforcement at the Federal level, including 
the FBI. I think we can get this done.
    Mr. Simmons. Let me read the next sentence, then, in his 
testimony.
    ``But Mr. Chairman, what I am less sure about is that the 
national effort is making the best use of this homegrown 
information.'' The national effort is making the best use of 
this homegrown information. And I know this is not something 
that is new to us, but it is once again the question of the 
information presumably that is being shared up the system being 
systematically incorporated into the national level 
organization.
    Mr. Allen. I am very sympathetic with that statement. I 
think that we collectively--not just Homeland Security, but we 
collectively, as a Federal Government, must take better 
advantage of the information collected and sifted at the local 
level. We see fusion centers, as they are now forming, putting 
out advisories, sending us information at an official use 
level. Some of that information contains unique data that are 
helpful not only to us as we do intelligence assessment of 
potential threats, but also obviously a value to the Federal 
Bureau of Investigation. I believe that the writer of that is 
correct, we must significantly improve that.
    One of the things that we are doing is, of course, we are 
trying to define, in working both with the National 
Counterterrorism Center--Dr. Morris here in particular--trying 
to get a better handle on how to employ and utilize suspicious 
activity reporting. I think a lot of that information that 
passes flowed upward, and the Federal Government has not made 
the best use of it. I am very pleased that under Scott Redd and 
under Ambassador McNamara, who is an old friend of mine, that 
we are going to do more of this. And by putting my officers 
there with the local officers, I think we are going to--I think 
we are going to do a lot of good things. When we have had the 
Mumbai bombings, which occurred about the 10th of July, having 
an officer in Los Angeles was a great thing. He did wonders 
that day to just talk to everybody at every level as to what 
that might mean. Having officers out in New York and with Los 
Angeles during the recent foiled airliner event was a good 
thing because we had that personal interaction right up through 
the most senior level, say, of Los Angeles city government.
    Mr. Simmons. I think it is fair to remark that the system 
of passing information up through the chain of command has 
never been perfect in the past in the previous models that we 
have used. My recollection is that prior to 9/11 certain FBI 
officers were reporting strange behaviors, individuals trying 
to learn how to fly airplanes but not to land or take off, and 
that that was a strange and unusual--an anomaly if you will, 
but nonetheless, the folks at the Washington level did not see 
any harm in it at the time, or at least that is my 
recollection.
    Is there some mechanism whereby the national level folks 
can judge the value or provide a feedback loop if something is 
in fact useful or is there a mechanism for providing a feedback 
loop that essentially says we are not sure why you think this 
is significant? In other words, is this process virtual or is 
it more like a traditional stovepipe?
    Mr. Allen. It is changing, because I think it used to flow 
up and was not necessarily acted upon. As we recall the 
Moussaoui case, that was where he was learning to steer 
airplanes but not take off and land, and it was an anomaly that 
we didn't understand at the time. Today, when we have people 
buying large quantities of cell phones, as you know, that can 
also trigger a great deal of interest.
    I find the alertness at the State level--and not every 
State has fusion centers as yet, but right across the country 
we see information flowing up that will make us a lot more 
attentive to be able to interpret and provide guidance back. We 
are doing it on a daily basis, we need to do more of it. As I 
expand outward to these other States, these are States that are 
really important like Texas and Virginia and others, New York, 
Arizona, the State of Illinois, which is Ken Bouche's State, 
Florida, I think we are going to see a lot better interaction, 
because what we need to do is more or less get on secure chat 
or official use chat and get back and forth, either as you say 
virtually or on the telephone. And by having officers embedded, 
we can facilitate that very well.
    Mr. Simmons. I thank you. Within a State or a local fusion 
center, how do you differentiate the roles between the fusion 
center teams and let's say the FBI field office, the JTTFs, the 
Joint Terrorism Task Forces, and the Field Intelligence Groups, 
for the FIGS? I have received briefings on the different 
organizations. I realize that some of our fusion centers are 
FBI field station based, others are based on other models. And 
I know that you have testified that one size doesn't fit all 
and that we have to be very careful in standardizing at a 
Federal level because of the differences between the States, 
but as a practical matter, as we move forward, how do we 
differentiate between some of these different entities? And is 
a system or a method of making them more systematic, is that 
called for?
    Some have actually said to me, well, we don't need the 
Department of Homeland Security to be involved in the fusion 
centers, the FBI's field intelligence groups are pretty much 
doing the job already. How would you respond to that kind of a 
comment?
    Mr. Allen. I will respond by saying that we will go where 
State fusion centers welcome us and want our support and our 
intelligence analytic capabilities as well as our ability to 
harvest information, say, from DHS's operating components that 
may be of value at the State level.
    I believe that is an excellent question. I believe that 
JTTFs have collocated about 25 percent of the fusion centers 
across the country that now exist, and there are about 42 
fusion centers, give or take a fusion center. About 75 percent 
of the JTTFs are not collocated. They may be collocated with 
State police, emergency operation centers, or they may be 
collocated with Homeland Security advisers. So I believe that 
within this broad landscape there is a great deal of 
significant work we can do.
    Our community is a bit broader in some respects because we 
are looking at threats to the homeland at large, including 
border security, CBRN. We are looking at the critical 
infrastructures, things where we have unique insights that 
other people do not have. Between infrastructure protection of 
Bob Stephan and my own analyst, we can bring together all the 
best brains of this country that work on infrastructure 
protection and help assess threats to infrastructure at the 
fusion center level.
    There is an extraordinary vital role played by the JTTFs 
and the FIGS for counterterrorism and for law enforcement, but 
I believe there is a broader role that DHS intelligence 
analysis can play. We are happy to do that where the States 
welcome us.
    Mr. Simmons. You mention the States welcome you. Of the 38 
that have fusion centers, has any other State or entity said, 
thanks, but no thanks, we are doing fine the way we are?
    Mr. Allen. I don't know. In virtually every case, everyone 
where we have done assessments, all those people have been very 
welcome to us. There are a couple of places where they are 
still studying and evaluating whether they wish to have DHS 
embed officers, and that is fine, it is up to them.
    Mr. Simmons. I recently returned back from a trip to 
Toronto, where we were studying radicalization; it was a very 
interesting phenomenon that we discovered up in Toronto 
involving over a dozen--or allegations involving over a dozen 
Muslim youths who were engaged in a plot to kill the Canadian 
Prime Minister and blow up some key buildings. There was very 
good cooperation and coordination up there between the Royal 
Canadian Mounted Police and the Intelligence Service, and I am 
told cooperation with our own folks down here in the 
Continental United States. Has Canada, by any chance, employed 
the same model or inquired about the model we are using, let's 
say, in Vancouver, Quebec or Toronto, to create fusion centers 
at their level, and if so, have we cooperated in that effort?
    Mr. Allen. I have met with the Canadian Border Security 
Agency head of intelligence, and we have an exchange coming up 
shortly. I am on my way to Canada I believe on the 26th and 
27th of this month--27th and 28th of this month to meet with 
Canadian officials. We have also met with their senior 
assessment people.
    We have explained what we are doing here with our State 
fusion centers. We certainly will provide them with any data 
and any information that they think may be helpful. I have not 
yet had a formal exchange on that. Most of our exchanges have 
been and will be on border issues and on radicalization issues, 
what is the phenomenon of radicalization. The Canadians are 
looking at that quite hard, as well as other countries like the 
Danes, as you probably could imagine, and the Dutch.
    Mr. Simmons. Thank you. Is there any shortage of 
appropriate personnel to implement your proposed plan? You 
talked about sending people down to half a dozen facilities. I 
assume that is a 2 to 3-year assignment. Do you have the 
resources and the assets to accomplish that task and still do 
your own business here in Washington, D.C.?
    Mr. Allen. I think that is a very good question, sir. We 
obviously have sufficient resources to get us through 2007. In 
fiscal year 2008 through 2012 we will have to look at our 
resource requirements, because this is going to take a good 
number of our people that we are going to deploy, not just TDY, 
but PCS, Permanent Change of Station, and pay for their way out 
there to get settled with their families for a period of 2 or 3 
years, with probably an option to stay even longer.
    We also have an intelligence campaign plan dealing, as you 
know, Mr. Chairman, dealing with the border. I am meeting with 
Commissioner Basham to decide how to deploy some intelligence 
officers to work border security issues, which will be another 
drain on my staff.
    Right now we are okay. We will take another look with the 
Secretary and his Chief Financial Officer for fiscal year 2008 
through 2012.
    Mr. Simmons. As you look at this issue of the few fusion 
centers and all of the challenges and difficulties that we are 
dealing with, not the least of which is we are developing a new 
model to deal with a new problem, what are the biggest hurdles 
that you are facing? And in particular, how can this committee 
or this Congress assist in overcoming those hurdles?
    Mr. Allen. I think our biggest hurdles of course are where 
we have got to be more responsive for the State fusion centers 
and their needs. One, they need crypto equipment. We are 
supplying a lot of that now, working with, obviously, the 
grants in training as required to pay for such things, get them 
cryptographic equipment and data processing capabilities. We 
have to--one of our biggest challenges is to train not only my 
own people that need training as all source analysts, but reach 
out and offer courses to State and local governments. We are 
doing that. We have had some States participate. New York, 
Maryland I know has sent officers up to take training courses 
on what is analysis, how to do writing, how to do briefing. I 
believe the information technology challenges are hard to get 
the communications right, get it flowing down.
    It is also making sure that we are communicating clearly to 
the fusion centers. There has been misunderstandings as to what 
we can do to support them, to most of all look on them as 
customers where we can support them, not go down and try to 
dictate a particular way to manage or assess information.
    I think we are defining a lot of these areas as we go. The 
main thing, of course, is just getting this done rapidly. 
Deploying people rapidly to the field is not a forte of the 
Federal Government, and we need to improve on the speed with 
which we get officers out to the places where they actually 
really want us. New Jersey wants a full--they are moving to one 
fusion center there in Trenton. They want us to have an officer 
up there, and we are trying to get an officer up there as soon 
as we can by the end of this year.
    Mr. Simmons. I note for the record that OPM, which is 
charged with doing clearances for the Defense Department, is so 
backed up that they have had to suspend doing their 5-year 
updates and some of the other clearances. So I would imagine 
that if you are not hiring people who have prior clearances, 
that would be another factor in slowing the process.
    Mr. Allen. That is a good question, a good statement, 
because one of the things we are hiring is we are hiring people 
right out of universities, and they have no clearances. And 
trying to get it through the OPM system is a very costly as 
well as a very slow process. We find that other agencies which 
have more accepted services, agencies like the Central 
Intelligence Agency, they plucked off a University of Texas 
officer the other day, and they also took one of our finest 
briefers the other day. So trying to quickly compete and offer 
the kind of career development that is needed in Homeland 
Security intelligence is a challenge because we don't move as 
fast as we could on clearances.
    Commissioner--Assistant Secretary Myers, who heads ICE, the 
other day was bemoaning it took 18 months to 24 months to get 
people cleared, and she really believes we need to find ways to 
expedite clearances.
    In my view, clearing young people coming in off campus 
campuses ought to be the easiest way to clear people. They 
don't have a long track record. We ought to be able to clear 
them a lot faster than we do.
    Mr. Simmons. Well, I concur in that. And I just want to 
again extend our apologies for the delays to getting you to the 
witness table this afternoon. We have good days and bad days 
sometimes, and today apparently was one of the worst, and of 
course following the votes everybody headed for the airport. So 
I very much appreciate all of the talent and ability and 
experience that you are bringing to this job. I very much 
appreciate the fact that you have dedicated yourself to solve a 
problem that we have not had in the past in this country, which 
is new and different and challenging. And thank you very much 
for your service and for your testimony here today.
    Mr. Allen. Thank you, Mr. Chairman.
    Mr. Simmons. The Chair will now call the second panel.
    Our first witness on the second panel will be Colonel Ken 
Bouche, who is Deputy Director of the Information and 
Technology Command, Illinois State Police. Colonel Bouche also 
serves as Chair of the U.S. Department of Justice Global 
Justice Information Sharing Initiative, Global Advisory 
Committee. He will be able to testify about national 
initiatives, as well as the work that Illinois is doing to 
integrate its State terrorism intelligence center with other 
statewide and national efforts.
    We also have with us today Ms. Amy Whitmore--and I will ask 
all of the witnesses to come to the table--who is an Analyst 
Supervisor assigned to the Virginia State Police's Virginia 
Fusion Center and manages all analytical assets for the center. 
She was one of three personnel initially assigned to create a 
fusion center for Virginia and played an integral role in 
establishing the VFC and its policies and procedures. She will 
be able to testify about the creation and the operation of the 
center, as well as help provide an analyst viewpoint on what 
kind of information is most helpful and what kind of analytical 
support is needed.
    Rounding out the panel is Mr. Richard L. Canas, who is 
Director of the New Jersey Office of Homeland Security and 
Preparedness, which was created this last March. He has spent 
34 years in law enforcement, intelligence, counterterrorism and 
policy making, and served as director of the nonprofit 
Concurrent Technologies Corporation, where his main focus was 
on developing open source information and technology to support 
the country's emergency response community.
    You have all heard the remarks that have been made by the 
previous witness, you have heard some of my questions on the 
subject, so I think you have a good sense of how we function 
here. And with the exception of the absence of all of my 
colleagues, I welcome you here to this hearing and look forward 
to hearing your testimony.
    We have the written testimony in our briefing books 
available to us, and so I would suggest that you not read it 
into the record, that if you can highlight it over a period of 
about 5 minutes each, that will probably work very well. And we 
will run a little light system just as a reminder, if that is 
agreeable.
    Why don't we start with the colonel, Colonel Bouche.

              STATEMENT OF COLONEL KENNETH BOUCHE

    Mr. Bouche. Thank you, Chairman Simmons.
    I sincerely appreciate the opportunity to be here today to 
discuss State and local law enforcement issues in relation to 
Homeland Security. I have provided the committee with a written 
testimony and request that it be included in the record.
    Mr. Simmons. Without objection.
    Mr. Bouche. As you said, I am a Colonel with the Illinois 
State Police, have been for 23 years. More importantly in my 
role as the Chairman of Global and the past chairman of the 
Criminal Intelligence Coordinating Council in the Global 
Intelligence Working Group, I have been fortunate to actively 
participate in ongoing discussions regarding intelligence 
reform, and I have been privy to an intimate view of our 
national technological strengths and deficiencies in the area 
of intelligence sharing.
    Over the past year, Global has worked closely with the 
Office of the Program Manager and members of the Information 
Sharing Council as they work to design and implement the 
Information Sharing Environment. While we appreciate the 
inclusions to date, the State and local officials must become 
equal partners as we move forward in establishing the ISE and 
as these efforts continue.
    In regard to fusion centers, it was State and local 
officials who initially recognized the importance of local 
intelligence centers and brought about the collaboration and 
the expertise necessary to develop fusion center guidelines. I 
am proud of the fact that there is recognition at the Federal 
level of the important role of State and major urban fusion 
centers, and that they are to be incorporated into the ISE.
    I don't want to--this is where I get off course a little 
bit, and I don't want you to get me wrong, I am probably the 
biggest proponent of fusion centers, and I am here to say that 
establishing them in every State is not enough. The role of 
fusion centers, and for that matter the role of State and 
tribal authorities in our Nation's effort to combat terrorism 
has not been clearly defined. It dismays me that 5 years after 
September 11th more progress has not been achieved as it 
relates to the sharing of information needed to prevent and 
respond to attacks and possible threats against our community. 
Our lack of success is largely because a strategy has not yet 
been defined.
    Of course as is understood that any strategy will include 
the prevention of attacks, the deterrence of terrorism and the 
capacity to both respond and recover if attacked, but still we 
do not have a clear picture of how that will occur. Our 
Federal, State and local soldiers on the war on terror do not 
understand how they fit into the Nation's strategy. They have 
not been given a road map to follow because a road map does not 
exist.
    We are operating in a fragmented environment, rarely 
coordinated and often pitted against each other. There is over 
800,000 law enforcement officers and over 19,000 police 
agencies in this country ready to assist with domestic 
security. Important intelligence information that may forewarn 
of a future attack is collected by local and State government 
officials during routine crime control activities and by 
interacting with our citizens.
    The critical importance of intelligence for front line 
police officers cannot be overstated. They are a critical 
component of our Nation's security capacity as both first 
responders and first preventers. Consider this, over the past 
couple of years many things have happened that have really 
highlighted our capacity to be first preventers. In a narcotics 
investigation they revealed that a Canadian based organization 
supplying precursor chemicals to Mexican methamphetamine 
producers was in fact a Hezbollah sport cell. A local police 
detective in California investigating a gas station robbery 
uncovered a homegrown jihadist cell planning a series of 
attacks. A State police investigation into cigarette smuggling 
uncovered hundreds of thousands of dollars in wire transfers to 
persons living in the Kashmir region of Pakistan. These are 
just a few examples of how cops on the street are interacting 
with citizens and creating a more secure domestic environment.
    The program manager has been working closely with DOJ, DHS 
and the FBI to design a framework for information sharing. This 
represents a critical step forward, and we urge that it be 
implemented rapidly, and the coordination that led to this 
development continue. But even with this framework, there is 
still a need for an inclusive comprehensive national strategy 
that will define our national goals, that will solve 
impediments to information sharing, such as creating a common 
approach to our technological infrastructure. The pipes that 
supply information and the systems that our law enforcement 
agencies have to rely on are redundant and often conflicting.
    We need to develop appropriate rules and markings for 
sensitive unclassified information, as a recent GAO report 
showed that there is far too many markings for unclassified 
material, making it very difficult to bring into fusion centers 
and then further disseminate. Developing an information 
classification system that works in our new domestic security 
environment, because clearly our Cold War approach is not 
working--you said it yourself, sir. We can't clear the people 
who need to be cleared to get information.
    Mr. Bouche. So even when our fusion centers get information 
and our police chiefs get information, they can't pass it on to 
those commanders and patrol officers and detectives that need 
to use it because they don't have the ability, one, to 
declassify it; it can't be done rapidly; terror lines simply 
aren't working; and the system is designed to keep information 
secret, not to put it forward.
    I see I am out of time; and, in conclusion, in order for a 
strategy to be successful, we have to create a culture of 
information sharing, a culture that demands participation, 
quickly corrects those who fail to appropriately share. In 
order for our Nation to be successful, bridges must be built 
among local, State and Federal intelligence and law enforcement 
and homeland security agencies. These bridges must lead to a 
greater understanding of each others' needs and 
responsibilities and capabilities.
    Homeland security partners at all levels must recognize 
that terrorism is criminal activity. It is funded through 
criminal activity, and it will best be prevented in an all-
crimes approach. In a domestic environment, police are your 
best weapons.
    Mr. Chairman, I thank you for giving me the opportunity to 
speak today; and I hope my comments will be useful in your 
future deliberations.
    Mr. Simmons. Thank you very much for that testimony; and I 
agree with virtually everything you said, so this is going to 
be a lovefest.
    [The statement of Mr. Bouche follows:]

              Prepared Statement of Colonel Kenneth Bouche

    Chairman Simmons, Ranking Member Lofgren, Members of the 
Subcommittee, I sincerely appreciate the opportunity to appear before 
you today to discuss local and state law enforcement's involvement with 
nationwide implementation of fusion centers and related issues 
impacting local, state, and tribal law enforcement.
    I have served with the Illinois State Police for over 22 years in a 
variety of roles ranging from a trooper and a supervisor to a commander 
with patrol and investigative assignments. Presently, I serve as the 
Deputy Director of the Information and Technology Command, with 
responsibility for leading the technology, information, research, 
criminal history, and strategic management functions of the Illinois 
State Police. In this capacity and as the chair of the U.S. Department 
of Justice's (DOJ) Global Justice Information Sharing Initiative 
(Global), and past chair of both the Global Intelligence Working Group 
and the National Criminal Intelligence Coordinating Council (CICC), I 
have been fortunate to actively participate in the ongoing discussion 
regarding intelligence reform and I have been privy to an intimate view 
of our national technological strengths and deficiencies in the area of 
justice information sharing.
    Global, a Federal Advisory Committee to U. S. Attorney General 
Alberto Gonzales, supported by the Bureau of Justice Assistance, Office 
of Justice Programs, is recognized nationwide as a "group of groups" 
whose membership represents the entire justice community. When 
implementing the National Information Sharing Environment, of which 
fusion centers are an integral part, it is crucial that the federal 
government leverage the capabilities and systems that local, state, and 
tribal law enforcement agencies have available to support our nation's 
information sharing and antiterrorism efforts. Global and all of its 
related associations have been working very patiently over the past 
four years to support, encourage, and recommend positive change in the 
information sharing environment, while trying to build partnerships 
with the federal government.
    Many substantive products, tools, and resources have been produced 
by Global and its partners to improve information sharing across the 
country. Examples of these products include:

    The National Criminal Intelligence Sharing Plan (NCISP)-The NCISP 
represents law enforcement's commitment to take it upon itself to 
ensure that the dots are connected, be it in crime or terrorism. The 
Plan supports collaboration and fosters an environment in which all 
levels of law enforcement can work together to improve the safety of 
the nation. The Plan is the outcome of an unprecedented effort by 
local, state, tribal, and federal law enforcement officials at all 
levels, with the strong support of the DOJ, to strengthen the nation's 
security through better intelligence analysis and sharing.The Global 
Justice XML Data Model (GJXDM) and the National Information Exchange 
Model (NIEM)-The GJXDM is a data exchange standard which makes it 
possible for courts to talk to law enforcement, to talk to probation/
parole, and to talk to victims' advocates, all without having to build 
new systems and negotiate new business rules. NIEM will extend the 
information sharing capability in GJXDM to other integral justice-
related partners like emergency management, immigration, and 
intelligence. NIEM not only represents the best-and-brightest technical 
solutions to information sharing challenges but also a solid 
partnership between DOJ and the U.S. Department of Homeland Security 
(DHS).
    The Fusion Center Guidelines--The Guidelines were developed 
collaboratively between DOJ and DHS. The document provides a 
comprehensive set of guidelines to utilize when establishing and 
operating a fusion center. The guidelines include integration of law 
enforcement, public safety, and the private sector into fusion centers 
and utilize the intelligence and fusion processes to develop and 
exchange information and intelligence among all applicable entities.
    Even with these considerable accomplishments, there are many 
critical issues that still require resolution, especially if fusion 
centers and the intelligence-led policing effort are to be successful. 
Issues such as development of a common national policy for local, 
state, and federal users of sensitive but unclassified (SBU) 
information, security clearances and over classification of 
information, identification of a primary federal agency responsible for 
receipt and dissemination of terrorism-related information to and from 
local and state fusion centers, and leveraging existing systems and 
networks instead of creating new, duplicative capabilities.It truly 
dismays me to think that five years after the September 11th attacks, 
we are still not where we should be regarding the exchange of the 
information needed to prevent and respond to attacks and possible 
threats against our communities. We can no longer comfort ourselves 
with the notion that these attacks will occur on some distant foreign 
soil. They will undoubtedly occur here in the U.S. quite possibly in 
Chicago, Peoria, Springfield, or any of our Nation's communities.
    Fusion centers are a key component for ensuring the flow of threat- 
and crime-related information among local, state, regional, and federal 
partners. The principal role of the fusion center is to compile, 
analyze, and disseminate criminal and terrorist information and 
intelligence, as well as other information to support efforts to 
anticipate, identify, prevent, and/or monitor criminal and terrorist 
activity. Fusion centers provide a mechanism through which law 
enforcement, public safety, and private sector partners can come 
together with a common purpose and improve the ability to safeguard our 
homeland and prevent criminal activity.
    In order for local and state fusion centers to effectively identify 
emerging threats and trends, it is important for the federal government 
to identify and communicate the national threat status to local, state, 
and tribal agencies. Local, state, and tribal agencies and fusion 
centers desire clearly defined intelligence and information 
requirements from the federal government that prioritize and guide 
planning, collection, analysis, and dissemination efforts.
    Currently, local, state, and tribal agencies and fusion centers 
forward information concerning suspicious incidents to multiple federal 
agencies with seemingly conflicting or duplicate missions. For example, 
should terrorism-related information be sent to the Federal Bureau of 
Investigation's (FBI) Joint Terrorism Task Force, the FBI's Field 
Intelligence Group, the National Counterterrorism Center (NCTC) or the 
U.S. Department of Homeland Security's Headquarters? The federal 
government must, in close collaboration with local and state agencies, 
support the development of a national strategy for local, state, and 
tribal agencies and fusion centers to use when transmitting information 
to the federal government. The plan should clearly describe the flow of 
information-the "lanes in the road"-beginning at the local level, 
routing through the regional and/or state fusion center, and ending at 
the appropriate federal entity. Additionally, a single point of contact 
at the federal level should be identified for routing information that 
is received at the local and state level. Developing a plan to address 
the bi-directional sharing of information will assist with minimizing 
duplication and possible contradiction of information, while enabling 
relevant entities to maintain situational awareness.
    A significant problem that local, state, and tribal agencies face 
is the lack of substantive information needed to prevent terrorism. 
Much of the needed intelligence information is locked away from those 
who need it in the field or on the scene because of outdated cold war 
mentalities regarding classification of intelligence information. 
Critical information must be unclassified and disseminated 
appropriately if it is to be of any use in preventing domestic 
terrorism. We must develop a common national policy for local, state, 
and federal users of SBU information. The policy should clearly define 
appropriate uses and dissemination protocols, while respecting 
originator authority and facilitating the broadest possible 
dissemination to those with a need to know, including our non-law 
enforcement public safety partners such as fire departments and public 
health officials. By sharing timely and appropriate intelligence 
information with the first responders, law enforcement will be better 
able to assess danger and respond more quickly, potentially saving and 
protecting many lives. The federal government must work towards a goal 
of declassifying information to the maximum extent possible.
    The fact that some information needs to be classified is not 
disputed, however, the current process regarding the issuance and use 
of security clearances needs to be revised. The present system is 
archaic and designed to keep information secret, and this system does 
not work in the current information sharing environment.
    Additionally, federal security clearances are not recognized 
between agencies, and the process for local, state, and tribal 
officials to receive a clearance is cumbersome and frequently takes 
multiple months or years to complete.Having a trusted sharing 
environment for communicating information and intelligence is a 
priority issue. There are a number of national systems and networks 
that local, state, and tribal law enforcement agencies utilize for 
information sharing efforts, including the Regional Information Sharing 
Systems (RISS), Law Enforcement Online (LEO), the Homeland Security 
Information System (HSIN), and Nlets--The International Justice and 
Public Safety Information Sharing Network. Currently, users must sign 
on to multiple systems in order to access information. Rather than 
develop new systems, it is recommended that the existing networks and 
systems be modified and augmented based on continuing information 
needs. The federal government should leverage existing information 
sharing systems and expand intelligence sharing by executing 
interoperability between operating systems at the local, state, tribal, 
regional, and federal levels using a federated identification 
methodology. Local, state, and tribal users should be able to access 
all pertinent information from disparate systems with a single sign-on, 
based on the user's classification level and need to know.
    There are over 800,000 law enforcement officers and over 19,000 
police agencies in this country to assist in domestic security. 
Important intelligence/information that may forewarn of a future attack 
is collected by local and state government personnel through crime 
control and other routine activities and by people living and working 
in our local communities. The critical importance of intelligence for 
frontline police officers cannot be overstated. Very real examples of 
the impact of law enforcement's important role in the intelligence 
collection and sharing process have been experienced by police officers 
across the country. Without the benefit of intelligence, local and 
state law enforcement cannot be expected to be active partners in 
protecting our communities from terrorism. In Oklahoma, a vigilant 
state trooper was the one who stopped and arrested Timothy McVeigh 
after the Oklahoma City bombing, for charges unrelated to the terrorist 
act. In an incident in Maryland, the lack of shared intelligence 
information prevented a state trooper from holding an individual who 
two days later became one of the 19 hijackers on September 11, 2001.
    In order to succeed, bridges must be built among local, state, and 
federal intelligence agencies and homeland security information 
consumers. Federal agencies must declassify information at the source 
with a "need to know" standard for dissemination. Local and state 
agencies that could contribute toward prevention strategies should be 
empowered with the information they need to do their job. Homeland 
security partners at all levels must recognize that terrorism is a 
criminal activity, is funded through criminal activity, and will be 
best prevented in an "all crimes" approach. This is not a federal war 
against terror, nor is it a war in some foreign land. This is the 
fundamental protection of our citizens from a domestic act of 
terrorism. If we are to continue to do our best in the prevention of 
these attacks, we must work as one united force.
    It appears that we have the capacity to do the job, however; we 
need clear policies and processes to assist with implementing our 
national information sharing initiatives. I feel there should be 
recognition of the value that local, state, and tribal officials can 
bring to the table-not an assumption that this is a federal problem or 
that the threat will be mitigated by the federal government. This 
administration has a limited time to accomplish its goals and we have 
much work to do. Local and state officials have serious issues to 
resolve and want to be active, ongoing partners and participants with 
the federal government in the process.Mr. Chairman, I thank you and 
your colleagues for giving me the opportunity to speak to you today and 
I hope my comments have been of some use to you in your deliberations.

    Mr. Simmons. What we will do is we will hear from our two 
other witnesses and then I will get into questions. So our next 
witness will be Ms. Whitmore.
    What you want to do is push the red button and speak fairly 
closely to the microphone. Pull it over. Don't be shy.

                   STATEMENT OF AMY WHITMORE

    Ms. Whitmore. Good afternoon. My name is Amy Whitmore. As 
you stated, I am an analyst supervisor with the Virginia State 
Police, and I am responsible for coordinating the activities of 
analysts assigned to the Virginia Fusion Center. Thank you for 
the opportunity to testify today in regard to the State and 
local fusion centers and the role of DHS. I look forward to 
answering any questions posed by you at the conclusion of this 
testimony.
    I have submitted written testimony and request that it be 
included in the record.
    Mr. Simmons. Without objection, it will be included.
    Ms. Whitmore. The Virginia Fusion Center was established in 
February, 2005, to fuse together key counterterrorism resources 
from local, State and Federal agencies as well as private 
industry to facilitate information collection and sharing in 
order to better defend the Commonwealth of Virginia against 
terrorist threats and attacks.
    The Virginia Fusion Center is a cooperative effort between 
the Virginia State Police and Virginia Department of Emergency 
Management, with personnel from both agencies staffing the 
center on a 24-hour basis. There are also currently 
representatives from the Virginia National Guard and FBI, with 
future plans to staff representatives from the Virginia 
Department of Fire Programs and DHS.
    In order to meet this mission, the Virginia Fusion Center 
has developed new partnerships with private industry and 
representatives of agencies having a mission-critical role in 
homeland security, such as the health and transportation 
sectors. At the same time, we have strengthened existing 
relationships with law enforcement and military. These 
partnerships provide the foundation for the Virginia Fusion 
Center, but this foundation will weaken and eventually collapse 
without the critical exchange of information to all appropriate 
partners in a timely manner. This is the utmost and critical 
need for the Virginia Fusion Center and involves several facets 
that will be discussed.
    Currently, the Virginia Fusion Center must monitor several 
Federal and regional systems to gather and disseminate critical 
homeland security information throughout the day. Often, this 
limits the operational effectiveness of the Center by having 
personnel duplicate efforts and view oftentimes redundant 
information. Thus, it is imperative that one uniform Federal 
system be adopted that allows all partners access based on 
appropriate clearances and provides real time information that 
is both classified and unclassified.
    The current systems are lacking time-sensitive tactical 
intelligence that is needed for management at all levels to 
effectively direct resources where they might be needed to 
address a potential threat. Also, a majority of State and local 
agencies have a limited amount of personnel that possess a 
Federal security clearance, making it difficult to forward 
classified information. In our experience, information 
intelligence is still being overclassified.
    In addition to having one Federal system with timely 
information, it would also be beneficial to have one Federal 
conduit from which to report and receive information. It is 
often difficult for State and local centers to determine which 
Federal agencies should be notified and to whom to direct that 
information within that agency. This would eliminate any 
guesswork in forwarding information and would ultimately 
benefit the information-sharing process as it would alleviate 
duplicate efforts and redundancy of information reported by 
multiple agencies.
    The Virginia Fusion Center has also encountered problems 
with the DHS policy to forward intelligence and information 
only to the State's Homeland Security Advisor, who does not 
have direct involvement with the Virginia Fusion Center and is 
not responsible for information sharing with other agencies. 
While the Homeland Security Advisor certainly should be 
provided with such information, it is critical that the 
Virginia Fusion Center as well as other of local and State 
centers directly receive this information in a timely manner in 
order to ensure that appropriate actions are taken to include 
the timely dissemination of information.
    Lastly, the Virginia Fusion Center's unique structure has 
made it difficult to obtain security clearances that are 
recognized by various Federal agencies for all personnel 
assigned to the Center. Depending on the employing agency, 
personnel obtain clearances through the FBI, DHS or DOD. Since 
these clearances are obtained through several different 
agencies, additional steps must be taken to ensure that each 
clearance is recognized by the other Federal agencies.
    DHS has also certified our secure conference room as an 
open storage of classified information, not to exceed the 
Secret level, but the Department of Justice does not recognize 
the certification. These issues present major challenges, as 
operational effectiveness can be compromised if all personnel 
and facilities are not consistently cleared through the same 
process.
    While I have addressed the needs of the Virginia Fusion 
Center to ensure its operational effectiveness as it relates to 
Federal agencies, it should be noted that we have been working 
with DHS to better the information-sharing process. The 
Virginia Fusion Center has been involved in a pilot program 
aimed at information sharing at the State and local levels. 
However, the system is still one of many portals that require 
monitoring.
    DHS is also in the process of providing the Homeland Secure 
Data Network for the Virginia Fusion Center, but this cannot 
currently be accessed by Center personnel.
    While these efforts are helpful and a step in the right 
direction, they not do not remedy the problems addressed today. 
It is crucial that State and local centers be provided with 
real-time information that can be disseminated to their 
partners. Only when all agencies with mission-critical roles in 
homeland security receive timely information will we be able to 
effectively disrupt and prevent terrorist attacks from 
occurring in the U.S.
    Thank you for the opportunity to provide input in this 
incredibly important process.
    Mr. Simmons. Thank you very much.
    [The statement of Ms. Whitmore follows:]

                   Prepared Statement of Amy Whitmore

    Good morning, my name is Amy Whitmore. I am an Analyst Supervisor 
with the Virginia State Police and am responsible for coordinating the 
activities of the analysts assigned to the Virginia Fusion Center. 
Thank you for the opportunity to testify today regarding State and 
Local Fusion Centers and the role of DHS. I look forward to answering 
any questions posed by the Members of this Committee at the conclusion 
of this testimony.
    The Virginia Fusion Center was established in February 2005 to fuse 
together key counter-terrorism resources from local, state, and federal 
agencies as well as private industry in a secure, centralized location, 
to facilitate information collection and sharing, in order to better 
defend the Commonwealth of Virginia against terrorist threats and/or 
attack. The Virginia Fusion Center is a cooperative effort between the 
Virginia State Police and Virginia Department of Emergency Management, 
with personnel from both agencies staffing the center on a 24 hour 
basis. There are also currently representatives from the Virginia 
National Guard and FBI, with future plans to staff full time 
representatives from the Virginia Department of Fire Programs and DHS.
    In order to meet this mission, the Virginia Fusion Center has 
developed new partnerships with private industry and representatives of 
local, state, and federal government agencies having a mission critical 
role in homeland security, such as the health and transportation 
sectors. At the same time, we have strengthened existing relationships 
with law enforcement and military. These partnerships provide the 
foundation for the Virginia Fusion Center, but this foundation will 
weaken and eventually collapse without the critical exchange of 
information and intelligence to all appropriate partners in a timely 
manner. This is the utmost and critical need for the Virginia Fusion 
Center and involves several facets that will be discussed.
    Currently, the Virginia Fusion Center must monitor on a daily basis 
several Federal and Regional Information Management Systems to gather 
and disseminate critical homeland security information and 
intelligence. These systems include the Homeland Security Information 
Network (HSIN), Law Enforcement Online (LEO), Federal Protective 
Services Secure Portal System, Joint Regional Information Exchange 
System (JRIES), Regional Information Sharing System (RISS), as well 
several other state and local systems. To ensure that all pertinent 
information and intelligence has been obtained, all of these systems 
must be monitored throughout the day, ultimately limiting the 
operational effectiveness of the center by having personnel duplicate 
efforts and view often times redundant information.
    To effectively prevent and respond to terrorist related incidents 
as well as help our partners meet their homeland security missions, it 
is imperative that one uniform federal system be adopted that allows 
all partners access based on appropriate clearances and provides real 
time information that is both classified and unclassified. While the 
majority of the aforementioned systems provide excellent finished 
intelligence products, they are lacking time sensitive tactical 
information and intelligence that is needed for management at all 
levels to effectively direct resources where they might be needed to 
address a potential threat.
    In addition to having one federal system with timely information, 
it would also be beneficial to have one federal conduit from which to 
report and receive information, as it is often difficult for state and 
local centers to determine which federal agency should be notified and 
to whom to direct that information within that agency. Having one 
federal point of contact would eliminate any guesswork in forwarding 
information. This would ultimately benefit the information sharing 
process, because it would alleviate duplicate efforts and redundancy of 
information reporting by multiple agencies. It would also eliminate 
unnecessary efforts by state and local agencies to share information 
when it is not needed by a certain federal agency.
    The Virginia Fusion Center has also encountered problems with the 
DHS policy to forward intelligence and information only to the state's 
Homeland Security Advisor, who does not have direct involvement with 
the Virginia Fusion Center and is not responsible for information 
sharing with other agencies. While the Homeland Security Advisor 
certainly should be provided with such information, it is critical that 
the Virginia Fusion Center and other local and state centers directly 
receive this information in a timely manner in order to ensure that 
appropriate actions are taken to include timely dissemination of 
information to Virginia Fusion Center partners.
    Lastly, the Virginia Fusion Center's unique structure has also made 
it difficult to obtain security clearances that are recognized by 
various federal agencies for all personnel assigned to the center. 
Virginia State Police personnel receive clearances through the FBI. 
Personnel with the Virginia Department of Emergency Management, who 
have successfully undergone full Virginia State Police background 
checks and can view Law Enforcement Sensitive material, are unable to 
obtain clearances through the FBI and must obtain security clearances 
through DHS instead. In addition, our National Guard representative 
obtains their clearance through the Department of Defense. Since these 
clearances are obtained through several different Federal Agencies, 
there are additional steps that must be taken to ensure that each 
clearance is recognized by the other federal agencies. The Department 
of Homeland Security has also certified the VFC Secure Conference Room 
as an open storage of classified information, not to exceed the Secret 
level, but the Department of Justice does not recognize this 
certification. These issues present major challenges to the operation 
of the Virginia Fusion Center, as operational effectiveness can be 
compromised if all personnel and facilities are not consistently 
cleared through the same process. The majority of State and Local 
agencies also have a limited amount of personnel that possess a federal 
security clearance. This makes it difficult to forward classified 
information and intelligence to our partners that do not possess these 
clearances. Information and Intelligence is still being over 
classified.
    While I have addressed the needs of the Virginia Fusion Center to 
ensure its operational effectiveness as it relates to DHS and federal 
agencies, it should also be noted that the Virginia Fusion Center has 
been working with DHS to better the information sharing process. The 
Virginia Fusion Center has been involved in a pilot program aimed at 
information sharing at the state and local levels; however, the pilot 
program is one of many portals that require monitoring and it is not 
anticipated that this portal will become the only system to monitor. 
DHS is also in the process of providing the Homeland Secure Data 
Network (HSDN) for the Virginia Fusion Center. However, as HSDN can 
only be accessed by DHS and DOD personnel at this time, the benefit of 
having such a system wherein Virginia Fusion Center personnel cannot 
obtain access is limited. While these efforts are helpful and a step in 
the right direction, they do not remedy the problems addressed today.
    In order to prevent the next terrorist attack from happening on 
U.S. soil, it is crucial that state and local agencies be provided with 
real time information that can be disseminated to their partners. Only 
when all agencies with mission critical roles in homeland security 
receive timely information will the U.S. be able to effectively disrupt 
and prevent terrorist attacks in the U.S.
    Thank you for this opportunity to provide input into this 
incredibly important process.

    Mr. Simmons. Now we will hear from Richard Canas.

                 STATEMENT OF RICHARD L. CANAS

    Mr. Canas. Thank you very much, Chairman Simmons; and thank 
you for pronouncing my name correctly.
    I have some short remarks, and I also request that my 
longer testimony be included in the record.
    Mr. Simmons. Without objection.
    Mr. Canas. Thank you, Mr. Chairman.
    It is my pleasure to appear before you this afternoon to 
discuss New Jersey's new State fusion center and some of the 
roles that we would suggest that the Department of Homeland 
Security play in relation to this new center.
    Among other things, my office is responsible for 
intelligence and information sharing in my State. Clearly, the 
relationship of State fusion centers and the ways in which DHS 
can help foster and support them is paramount to our 
effectiveness.
    The New Jersey Regional Operations and Intelligence Center, 
or ROIC, as we affectionately call it at home, is a 
collaboration that incorporates the three different phases of 
information fusion: law enforcement intelligence, public safety 
and private sector information. It is managed by the New Jersey 
State Police, which also happens to manage the State's Office 
of Emergency Management.
    A new building housing the ROIC is just being completed at 
a cost of approximately $28Sec. llion, which has been totally 
State funded.
    Mr. Chairman, as you have already mentioned, I believe our 
fusion center is on the cusp of being the ultimate authority on 
the threats posed within our State by home-grown terrorists and 
other criminals. It will also serve as the center that can best 
inform us on the response to and mitigation of emergencies from 
all hazards. And that is how it should be. We should know more 
about New Jersey than anyone else.
    But, Mr. Chairman, what I am less sure about is that the 
national effort is making the best use of this home-grown 
information.
    DHS has visited the ROIC and offered to place a full-time 
representative there in the near future. In anticipation, my 
office has already detailed a full-time analyst to DHS's 
intelligence office; and the State Police has detailed a 
trooper to DHS's National Operations Center. We have invested 
in this cross-pollination because we believe that it is 
important that we understand each other's missions as we move 
forward in this information-sharing effort.
    Currently, DHS and other Federal entities such as the three 
FBI Joint Terrorism Task Forces that affect New Jersey and 
other locally based Federal agencies provide my office and the 
ROIC with almost daily general information on external threats 
with only occasionally some specificity about New Jersey. There 
is some duplication, but, frankly, given the intelligence 
drought before 9/11, we are not complaining.
    The communications links among us are excellent, and I 
could not think of how to better improve the inclusiveness 
Federal agencies have demonstrated in recent years. But there 
is a missing piece, something which is critical and something 
that only the Federal Government can provide. That is a 
national fusion center of local information.
    Mr. Chairman, New Jersey synthesizes and analyzes its 
internal threat information through the ROIC by drawing from 
our myriad of municipalities and local all-crimes reporting. We 
need that local assessment to manage our homeland security 
program. But that is all we can do. We do not have the time or 
resources to regionalize this effort with neighboring States or 
to blend our efforts with national trends or patterns.
    In many ways, New Jersey is a microcosm of the entire 
country, where homeland security effectiveness is viewed in 
terms of the lowest common denominator. We have 479 police 
departments, and as small as some are each needs to be 
recognized as a security expert within its area of 
responsibility.
    We need an effort that pursues the entire Nation's 
intelligence for its local value, but we have yet to receive 
assurances that Washington is interested in systemizing the use 
of this local data. If that is the reason DHS plans to place 
representatives in our fusion centers, no one would welcome 
them more than New Jersey.
    Home-grown terrorists will not always show up on Federal 
intelligence radar; and we must assume that these home-grown 
terrorists are plotting in neighborhoods, prisons and meeting 
halls across the country as we speak.
    As New Jersey's ROIC shortly becomes one of about 40 fusion 
centers on line across the Nation, we still have many questions 
to answer regarding how all the information we will be 
generating will be fused nationally by whom and to what ends. 
In my view, this is still a national work in progress. I am 
excited by the prospects, but we still have much more to do on 
the State and national level to bring the promise of fusion 
centers and a national intelligence gathering system to 
fruition, a fruition that will better protect us from terrorist 
attacks such as the one we experienced on 9/11.
    I thank you for your attention, and I would be happy to 
take any questions.
    [The statement of Mr. Canas follows:]

                 Prepared Statement of Richard L. Canas

    Thank you very much Chairman Simmons, Ranking Member Lofgren and 
members of the Subcommittee on Intelligence, Information Sharing, and 
Terrorism Risk Assessment.
    My name is Richard Canas, and I'm the Director of New Jersey's 
Office of Homeland Security and Preparedness. It's my pleasure to 
appear before you this afternoon to discuss New Jersey's new state 
fusion center and some of the roles that we would suggest that the 
Department of Homeland Security play in relation to this new center.
    To put things in context, however, I first want to outline the 
responsibilities of my office and discuss some of our key initiatives.
    My office is just about six months old. In March, New Jersey 
Governor Jon Corzine signed Executive Order #5, creating the New Jersey 
Office of Homeland Security and Preparedness as a cabinet-level agency. 
Previously, the responsibilities of my office were spread among a 
number of agencies and a statutory task force. In that configuration, 
New Jersey made considerable progress in safeguarding its citizens 
against potential terrorist attacks, but there was no single person or 
agency responsible to coordinate all counter-terrorism and preparedness 
activities.
    Executive Order #5 resolves that issue of authority. The Executive 
Order indicates that my office is responsible "to administer, 
coordinate, lead and supervise New Jersey's counter-terrorism and 
preparedness efforts."
    We are charged with coordinating "emergency response efforts across 
all levels of government, law enforcement, emergency management, 
nonprofit organizations, other jurisdictions and the private sector, to 
protect the people of New Jersey."
    The Executive Order also requires that we function as the 
Governor's clearinghouse for all legislation--state and federal--
related to counter-terrorism and preparedness issues. As a result, as 
you can imagine, we regularly track the work of the House Homeland 
Security Committee, and its subcommittees.
    In brief, my job is to bring all of New Jersey's homeland security 
efforts, at all levels, into a coordinated and unified whole. While 
doing this I am focusing on three watchwords: Inclusiveness, 
Regionalization and Transparency.
    "Inclusiveness" means that all relevant agencies--state, federal, 
local and private sector--must have a seat at the table. As I will 
discuss, our fusion center, New Jersey's Regional Operations 
Intelligence Center, commonly called the ROIC (and pronounced "rock"), 
clearly will embody this principle.
    "Regionalization" refers to concerns that overlap between and among 
municipalities and counties--even between New Jersey and our 
neighboring states. The ROIC, which already has "regional" in its name, 
will embody this principle as well. We aim to reflect the concerns of 
our 566 municipalities, 479 police departments, 21 counties and 
countless other first responder and other agencies that populate our 
disparate state.
    My third watchword, "transparency" means--simply enough--that the 
people of New Jersey and you, our federal partners, must be able to 
understand what my office does. Our actions must be totally open, 
explainable to the average person and understood by everyone. Again, 
the ROIC will help us meet this objective with true two-way 
communication to and from our various partners and constituencies.
    To sum up, with these watchwords, my office will serve as a place 
for single-stop shopping for counterterrorism information, intelligence 
and analysis. We also serve as the state's coordinating agency for 
emergency management functions. These roles carry a very diverse 
portfolio.
    We have divided our office into two major branches: a Division of 
Operations and a Division of Preparedness. We work closely with the 
State Office of Emergency Management--which in our state falls under 
the New Jersey State Police. New Jersey is one of only two states 
nationwide in which the emergency management function is contained 
within a statewide law enforcement agency; the other is Michigan.
    In this regard, the role of my office is--in short--to make sure 
the New Jersey Office of Emergency Management does its job properly, 
and has the appropriate resources it needs.
    Since I took office we have been involved in a number of key 
issues. To name just a few, these include planning for hurricane 
preparedness, pandemic flu preparedness, fostering communications 
interoperability and plans for continuity of operations and continuity 
of government. We are also the central point--or State Administrative 
Agency--for New Jersey's federal homeland security grant programs.
    In this role, my office is distributing more than $52 million in 
2006 federal homeland security grants throughout New Jersey. This year, 
the federal government gave us good news and bad news: in effect, we 
are receiving a larger share of a smaller pie.
    Funds for our Urban Area Security Initiative, or--UASI region--
covering Jersey City, Newark and the counties of Bergen, Essex, Hudson, 
Morris, Passaic and Union, is up approximately 77 percent from the year 
before, to $34.4 million dollars. Ours was the fifth highest UASI grant 
in the nation.
    On the other hand, New Jersey is only receiving $17.7 million in 
homeland security grant funds to be distributed statewide. This is a 
decrease of more than 52 percent from the year before.
    New Jersey's homeland security needs will always exceed the 
availability of funds. But it is very disappointing that the entire pot 
of federal funding to the states shrank by almost 30 percent this year. 
I certainly plan to work with you to reverse this federal trend.
    As we approach the fifth anniversary of 9/11, I do not understand 
why some think we are safer now than just five years ago. I believe 
that we are better prepared--and federal funding has certainly helped 
us in that regard. But I also believe that the threats against us--
though they may be more diffuse--have increased. We have been 
successful also because we are more vigilant, not because the enemy has 
stopped planning against us.
    To hone in on today's hearing, my office is also responsible for 
intelligence and information sharing in my state. Clearly, the 
relationship of state fusion centers and the ways in which DHS can help 
foster and support them is paramount to our effectiveness.
    As I mentioned earlier, the New Jersey Regional Operations and 
Intelligence Center (ROIC) is a collaboration that incorporates the 
three different phases of information fusion--law enforcement 
intelligence, public safety, and private sector information.
    It is managed by the New Jersey State Police, which as I mentioned, 
also houses the State's Office of Emergency Management. The ROIC has 
been operating in its current form since the beginning of this year, 
though in cramped quarters which constrain its effectiveness.
    A building housing a new Regional Operations Intelligence Center is 
just being completed. It encompasses 55,000 square feet of space and we 
are already adding another 11,000 square feet, which is currently under 
construction. It is being built at a cost of approximately $28 million, 
which has been totally state-funded. We believe the ROIC, which we 
expect will open its doors next month, will be one of most cutting-edge 
fusion centers in the country. Once it is open, I invite any member of 
this committee to take a tour and to see its capabilities first-hand.
    In developing the ROIC, New Jersey built on guidelines developed by 
the U.S. Justice Department and the Department of Homeland Security for 
establishing and operating fusion centers. In that regard, the ROIC 
follows the recommended focus on the intelligence process, where 
information is collected, integrated, evaluated, analyzed and 
disseminated.
    Because of its broad function, the center draws from a diverse 
population and includes representatives from federal, state, local, and 
private agencies who reflect the entirety of New Jersey's law 
enforcement, intelligence and emergency response community.
    In the area of homeland security, the fusion process supports the 
implementation of risk-based, information-driven prevention, response, 
and consequence management programs.
    It also embraces the principles of intelligence-led policing, 
community policing, and collaboration.
    The ROIC centralizes information on emergencies, crimes, and 
suspicious activities in support of a robust analysis process that 
develops trends and patterns and other aids that ultimately increases 
the ability to detect, prevent, and solve crimes while safeguarding our 
state.
    Mr. Chairman, and members of the subcommittee, I believe our fusion 
center is on the cusp of being the ultimate authority on the threats 
posed within our state by home-grown terrorists and other criminals, as 
well as the center that can best inform us on the response and 
mitigation of natural disasters. That is how it should be: we should 
know more about New Jersey than anyone else.
    But Mr. Chairman, what I am less sure about is that the national 
effort is making the best use of this home-grown information.
    DHS has visited the ROIC and offered to place a full-time 
representative there in the near future. In anticipation, my office has 
detailed a full-time analyst to DHS' Intelligence Office. The State 
Police also has detailed a trooper to DHS' National Operations Center. 
We have invested in this cross-pollination because we believe that it 
is important that we understand each other's missions as we move 
forward in this information-sharing effort. But we have yet to receive 
assurances that Washington is interested in systemizing the use of 
local data.
    Let me try to describe what I mean. Early in my career as a young 
federal agent, I assumed that all of my investigative reports, which 
were carefully marked for headquarters distribution, were routinely 
read and that they somehow factored into a sophisticated and systematic 
analysis that lead to macro decisions on strategy and support.
    It was not until years later when I was a federal administrator 
charged with producing strategic intelligence for the country on the 
threat of drugs and gangs that I saw that the volume of local data and 
the fusion of that data with all other sources was an expensive and 
resource-intensive proposition. And, in a local, operational-support-
starved environment, it did not add much value if it was not timely and 
specific.
    Conclusions such as these probably helped to foster the birth of 
the state fusion center concept, which does not rely on federal 
support.
    Currently DHS and other federal entities such as the three FBI 
Joint Terrorism Task Forces that affect New Jersey (Newark, 
Philadelphia and New York City), and the High Intensity Drug 
Trafficking Area program in Newark, and the other locally based federal 
agencies provide my office and the ROIC with almost daily general 
information on external threats with only occasionally some specificity 
to New Jersey.
    The communications links among us are excellent, and I could not 
think of how to better improve the inclusiveness federal agencies have 
demonstrated since 9/11.
    But there is a missing piece; something which is critical and 
something that only the federal government can do.
    Mr. Chairman, New Jersey will synthesize its internal threat 
information through the ROIC as I mentioned before, by drawing from the 
myriad of municipalities and their local reporting. We are doing that 
now and we will continue to produce an annual intelligence estimate for 
our state. It is a time-consuming process, but we can do no less. We 
need that assessment to manage our homeland security program.
    But that is all we can do.
    We do not have the time or resources to regionalize this effort or 
to blend our efforts with national trends and patterns. Nor do I see an 
effort by anyone at the federal level to standardize state efforts by 
building a national fusion center, a center that takes my information 
and looks for links with other similar events across the country. A 
center that builds a national data bank from local information, from 
the ground up as we are doing locally. If there is such an effort, the 
intelligence and emergency response communities of New Jersey are not 
routinely being informed about it.
    If there are home-grown terrorists plotting in another state to 
harm us in New Jersey, we would like the opportunity to defend 
ourselves. In many ways, New Jersey is a microcosm of the entire 
country. We do not have the ability, enjoyed by the New York or the Los 
Angeles Police Departments, to place people in other fusion centers or 
in countries that they perceive may present threats to their city or 
region.
    We need a national effort that views homeland security in terms of 
the lowest common denominator. As I noted, we have 479 police 
departments in New Jersey. As small as some are, each is the security 
expert within its area of responsibility.
    We need an effort that views all intelligence, like emergencies and 
politics, for their local value.
    As I say, we are getting the international and intelligence 
community information from DHS and the FBI like never before, but we 
are not getting routine intelligence from the other fusion centers.
    We will continue to harness all-source information for the state of 
New Jersey as other states are doing. If the federal government were to 
tap into that resource and sift through that data and share relevant 
information, we could protect ourselves better.
    I think that we are generally on the right road to creating a 
national information-sharing system that has potential to better 
protect all states and the nation. However, we need DHS to step up and 
provide a clearer road map, or a template, if you will, so that 
intelligence and information from states such as ours can be easily 
synthesized with information and intelligence from other states, as 
well as from the national perspective.
    If that is the reason DHS plans to place representatives into our 
fusion centers, no one would welcome them more than New Jersey.
    Right now, there is a considerably robust flow of information from 
the federal government, much of it of a sensitive nature that was never 
previously shared with state and local entities. But it is not 
information that we can easily "operationalize." It is information that 
is good to know, but it is not good information on which we can 
routinely act.
    As New Jersey's ROIC shortly becomes one of about 40 fusion centers 
on line across the nation, we still have many questions to answer 
regarding how all the information we will be generating will be 
"fused." By whom and to what ends.
    In my view, to sum up, this is still a national work-in-progress. I 
am excited by the prospects, but we still have much more to do on the 
state and national level to bring the promise of fusion centers and a 
national intelligence-gathering system to fruition, a fruition that 
will prevent events from 9/11 from ever happening again. Nonetheless, I 
have great hopes that we will make great progress in the short months 
and years to come.
    I thank you for your attention. I will be happy to take your 
questions.

    Mr. Simmons. Thank you all very much.
    Colonel Bouche, you mentioned the problem of sensitive but 
unclassified information, SBU. In your day-to-day operation, to 
what extent are people hindered by the fact that sensitive but 
unclassified information is simply not being shared?
    Mr. Bouche. I think that the problem is twofold. One is, 
because there is not a clear definition of how it is being 
handled, information is probably getting to people who 
shouldn't see it; and, at the same time, information is not 
appropriately being shared because people don't know how to 
handle it.
    One of the main issues in Illinois that we have with 
sensitive but unclassified information is, in essence, our 
classification system. And I would always argue with any of my 
Federal partners that the fact that a narcotics officer or an 
undercover officer working organized crime, a law enforcement 
sensitive document is the highest level a Top Secret 
classification could ever give, but yet his life, his methods 
all depend on the fact that that be kept secret, that it be 
kept from being shared. So where the confusion comes in is no 
one really has a clear understanding of what ``for official use 
only'' means. No one really understands what ``law enforcement 
sensitive'' means.
    I found it very interesting 2Sec. ars ago when we first 
raised this question at Global that the Department of Justice 
produced a policy on law enforcement sensitive that was written 
when the agenda for Global came out that they were going to 
discuss law enforcement sensitive and there wasn't a policy on 
it and there hasn't been a policy on it. So what needs to 
happen is we need to come forward with clear, very easy to 
understand recommendations.
    What we are getting back from many Federal agencies is, 
well, that is just not possible. You know, the GAO originally 
said there were 50 some and then they went up to 70 some and 
now it is 100 and some different markings. And I understand 
that they are a many of them are vested in laws, many of them 
are vested in policies and procedures of agencies, but the most 
important mechanism that we need to create is that when 
agencies at the Federal level exchange with agencies at the 
local level we follow a clear, consistent path.
    It doesn't matter how agencies at the Federal level 
exchange with themselves, it really doesn't matter how agencies 
within Illinois exchange with themselves, as long as there is a 
clear understanding of what the markings mean. But when we get 
to this global environment or at least national environment 
there has to be a very clear understanding. It has to be 
simple. And we are kind of shocked because we don't see it as 
being that difficult.
    Mr. Simmons. Continuing this line of questioning, I agree 
with you. When we first had hearings on SBU, it seems that the 
categories grew exponentially. I suggested to the witnesses 
perhaps we should get rid of all of them and then see who 
screams the loudest and add a few back. I don't think we have 
heard much from the executive branch on that recommendation.
    But the fact of the matter is, as you have described, you 
may have a situation locally in Illinois where a narcotics 
officer is tracking the drug trade, which may be a part of the 
finances of a terrorist group, does not want his or her source 
to be jeopardized, and yet information that is being learned as 
part of that investigation may apply to some other activity 
across a neighboring border. So how the heck do you preserve 
and protect your source who is reporting to you and at the same 
time allow that information to be useful?
    Now, again, law enforcement sensitive is not a 
classification. We basically have three classifications--
Confidential, Secret and Top Secret--and then a whole bunch of 
compartments. That is basically what the classification system 
says.
    But what you have described also is something I think that 
you said could be local. It could be a local control. Your 
local folks could be saying, hey, we have this hot tip, but you 
know we can't tell anybody right now because the source is in 
jeopardy. Has that been encountered by either of the other two 
witnesses in New Jersey or in Virginia, the issue of sensitive 
but unclassified?
    Mr. Canas. In New Jersey, Mr. Chairman, what we experience 
is that, of course, the most classified information we have are 
informants, under a national classification would be probably 
Secret or Top Secret. But under the classification guidelines 
of the executive order, federally, it really poses no threat to 
the United States of America if that informant is revealed, but 
it does locally create a tremendous disturbance within our 
local system.
    So, yes, we do need a separate classification for what I 
would call limited official use, which is really unclassified 
under the national system, but under the State and local system 
it is probably something of value.
    I don't know if the Colonel wants to add to that.
    Mr. Bouche. If I could, there is a recommendation from 
Global to come forward with three markings for sensitive but 
unclassified information, and one would be law enforcement 
sensitive, one would be homeland security sensitive and the 
third would be for official use only.
    There would be three sub-markings for all categories. The 
first and most restrictive would be restricted. So if it was 
law enforcement restricted the originating agency would be able 
to identify who could see the information generally by name of 
officer or individual or by name of agency. If it was need to 
if it was law enforcement sensitive need to know, it would be 
described by a policy of what agencies and those type of 
environments that it could be released to. And if it was law 
enforcement sensitive it just wouldn't be released outside of 
law enforcement. It could be used in places like Roll Call, but 
it would still be handled sensitively. Those same three 
subcategories would apply to the other two as well.
    We applied that simple model across the board with many 
Federal partners and tried to identify where the holes in it 
were; and, quite honestly, we couldn't find any. It seemed to 
really give us the opportunity and obviously would need a 
better structure around it than I simply defined to you, but 
there is a simple model that would really put forward some 
security on information coming from the State or coming from 
the Federal Government to the States.
    Mr. Simmons. And that three-part system, is that currently 
under consideration, in your view?
    Mr. Bouche. No. It was submitted to the sensitive but 
unclassified committee that was formed from what I understand 
at the Federal level. From what I understand, that committee 
has been disbanded, and a new committee has been formed. I had 
the opportunity to speak with Ambassador McNamara about it this 
morning, and he has invited me to have a representative at the 
new committee to make sure it gets presented.
    Mr. Simmons. Make sure you get that one back in there. He 
was the witness who I suggested that we just get rid of the 
whole damn thing and start over. I think he was shocked by the 
thought.
    We have heard earlier from Charlie Owen that there is a 
sense at the Federal level that fusion centers, which are 
different and are different for different reasons, should be 
respected for those differences, that they have grown up in 
different parts of the country with slightly different flavors 
and complexions but that that may reflect in fact that region, 
which is a good thing.
    At the same time, Ms. Whitmore, you said it is imperative 
that one uniform Federal system be adopted that allows all 
partners access based on appropriate clearances and provides 
real-time information. I gather what you are calling for here 
is a uniform Federal system, not uniformity in fusion centers. 
Is that correct?
    Ms. Whitmore. That is correct.
    Mr. Simmons. And how do you see the failure of that 
uniformity to effect your mission?
    Ms. Whitmore. Well, like I said in my statement, right now, 
we are currently monitoring probably seven or eight different 
systems on a daily basis throughout the day and those systems 
may have the same information on each of them but you have to 
check each one to make sure that you are not missing that one 
piece of information. If we have one Federal system that we can 
monitor for those types of information, then we are not 
spending hours checking the same information.
    Mr. Simmons. And you went on to say that one of the 
frustrating aspects that you have encountered is the issue of 
security clearances, which you have talked about a little bit, 
that Virginia State Police get their clearance from the FBI, so 
presumably the FBI makes the request, whereas the National 
Guard folks get it through DOD, and the law enforcement other 
groups get it through DHS. Which other groups get it through 
DHS?
    Ms. Whitmore. Virginia Department of Emergency Management 
and the Virginia Department of Fire Programs.
    One thing with that is that both of those agencies they 
still undergo full Virginia State Police background checks so 
they are cleared for law enforcement information. They are 
considered part of the Virginia Fusion Center, and they can 
access the same information. So that, technically, they have 
undergone Virginia State Police background checks, but they are 
employed by a non-law enforcement agency. So, therefore, the 
FBI won't conduct a clearance investigation for them. We have 
been told it can only be done by DHS, so we have to go through 
different agencies.
    Mr. Simmons. Is that the same situation that you have 
encountered in New Jersey and Illinois?
    Mr. Canas. In New Jersey, Mr. Chairman, the Department of 
Homeland Security does clearances for my office, all of my 
officers. If I do want to send one to the JTTF, for example, 
and a Top Secret is required, then the FBI does that clearance 
for us. The Governor's clearance, all of those are handled and 
the Attorney General's clearances are handled by the FBI, but 
DHS does the ones for my office and my staff and all the 
analysts we have in the ROIC.
    Mr. Simmons. Illinois?
    Mr. Bouche. It is basically the same issue, sir.
    Mr. Simmons. Should that system be corrected or changed?
    Mr. Bouche. The biggest problem that comes in is, one, the 
nonrecognition of the different clearances from different 
agencies, even though law requires them to be recognized. But 
that actually is a small problem compared to the problem of our 
inability to actually clear the people that need information. 
When we started talking about should the classification system 
be changed, if we could clear everyone that needed to be 
cleared, the system still wouldn't be perfect, but it would 
work better. It still is in need of reform.
    For example, all of our agencies, when we go through 
background investigations--and I did a comparison and actually 
did a comparison with the New Jersey Attorney General's Office 
of the backgrounds for Global that we conduct on our officers, 
that they conduct on their officers, that the New York State 
Police conduct on their officers; and with the exception of 
following up on immigrant backgrounds, there was nothing that 
happens in our--that doesn't happen in our investigations that 
wouldn't happen in a Top Secret clearance investigation.
    So it is time to reconsider who has the authority to clear 
people and who has the authority to issue clearances. There 
should be a central clearinghouse. If the Federal Government 
can issue the authority to a contractor to do background 
investigations, why couldn't they issue the authority to a 
State Police agency to clear their own people? That would go a 
long way in giving us the capacity to at least get the right 
people cleared so we could--because I believe the battle to 
reform our culture around Secret/Top Secret information is 
years in the making. This would be a stop fix that would help 
us get further.
    Mr. Canas. I would like to add to that, Mr. Chairman, and 
echo the Colonel's words; and I use myself as an example.
    Coming on board, my Secret/Top Secret clearance had expired 
when I took the job of what we call a four-way, which is a very 
extensive background investigation done by the State Police, 
lasted 2 months, extremely extensive, did everything except 
checking on trips I had taken overseas recently. None of that 
was included when I went for my Top Secret clearance with DHS. 
None of that was accepted by the contractor, had to do all that 
paperwork all over again, work that had already been done by a 
qualified State officer. It would seem awfully redundant, and I 
still don't have the clearance from the DHS on that. We have an 
interim Secret, so it just seems like an awful lot of 
duplication is taking place there that is unnecessary.
    Mr. Simmons. I appreciate that I served with the Central 
Intelligence Agency for 10 years. Having been a military 
intelligence officer, as a CIA officer I cleared at a fairly 
high level. When I resigned and went to work on Capitol Hill, I 
had to be recleared by the Senate for Senate staff work, even 
though I had been cleared by the Army and cleared by the CIA.
    And I guess the only time I have ever encountered that I 
have had no problem with my clearance is when I was elected to 
Congress.
    I am not suggesting that that is a good way to go. But, you 
know, what you have described is the insanity of what I call 
the secrecy system that we have, which is why I happen to be an 
advocate for open-source intelligence, which is intelligence 
that is produced from openly available sources of information 
that theoretically just about anybody can access. And when you 
understand that almost 80Sec. rcent of the average requirements 
that are out there can be answered in one way or another with 
open-source information, which can be shared, it is the path of 
the future, in my view.
    I think it was you, Colonel Bouche, who referred to the 
800,000 law enforcement officers and 19,000 police agencies in 
the country who haven't even talked about tribal entities, 
which in my State they have substantial police activities.
    You know this is a huge resource. It is absolutely critical 
to homeland security. But if we can't share the requirements 
and we can't share the tip-offs, how can they share the clues?
    So it is wiring these resources in a manner in which they 
can share back and forth that is so critically important and 
that appears to be the challenge. So often we look at it as a 
technical thing, that if we have a computer or a piece of 
software we can do it. But in actual fact what seems to be 
gumming up the works the most is the controls.
    Any thoughts on that?
    Mr. Canas. Well, I, for one, I spent most of my adult life 
in the Federal system; and I also was with the CIA and NSC and 
had to go through clearances and redundancy. But I am a big 
advocate of open source, but, as I mentioned to Mr. Allen 
before we testified, that, frankly, having these clearances, 
the information we receive isn't as important as the fact that 
we have access to it. That in and of itself has its own life. 
But the information itself is not critical.
    But knowing the so-called unknown--this is all post 9/11. 
You know, prior to 9/11, the idea of a State and local officer 
being shoulder to shoulder with the FBI working in a SCIF was 
unheard of. So we don't want to criticize too much. And having 
State and locals cleared and more of them that we have cleared 
it is going to bog down the system somewhat.
    But, frankly, it is much better that we have access to 
information, not because it is of great value to us in our day-
to-day work. Frankly, what we do internally is probably a heck 
of a lot more valuable. But it is the idea of what we don't 
know, and having access to what is out there is extremely 
valuable to not only the camaraderie you haven't heard too many 
complaints lately of a lack of sharing of information. That has 
improved a thousand percent since 9/11.
    Mr. Simmons. I appreciate that comment. I know it has been 
said on the record that what we are trying to do here in some 
respects is a work in progress, and I agree with that. But it 
is a work in progress, and I think progress has been made.
    I have worked at the Federal, State and local level; and 
certainly before 9/11 the way an investigation would unfold was 
pretty apparent. The local police would show up. They would lay 
out the yellow tape. Word would get out. The State troopers 
would show up in about 2 hours. They would take over. And then 
if it was really exciting, in comes the FBI: Okay, you bozos, 
get the hell out of here. It was very apparent.
    That model is no longer with us, and I think that is 
probably a good thing. It wasn't a great model to begin with, 
but I think, under the current environment, it is good that it 
is gone and hopefully forever.
    I have a question for all of you, and it may not be a fair 
question. So if it is not fair, just let me know.
    Which Federal agency should be the primary Federal agency 
responsible for the receipt and dissemination of terrorism-
related information to and from State and local fusion centers? 
I mean, there has been this discussion about the FBI. There has 
been discussion about homeland security. I suppose, you know, 
we can throw a couple of other agencies in there while we are 
at it. Which one should be the lead or the top dog, or in fact 
do we have what we might call a dog team? From the perspective 
of each of the three of you.
    Mr. Bouche. In Illinois, we are starting a new process that 
I think will help define how that occurs. In fact, in our 
fusion center, we have always worked what we call our desks, 
and our desks were narcotics and violent crimes and terrorism, 
and we had people who specialized in those. We are now going to 
expand on that process, and we are looking to create the 
environment where different agencies have a leadership role in 
different desks.
    So the FBI, for example, would clearly be defined as having 
the leadership role in anti-terrorism investigations. State 
officers, homeland security officers, anyone who is willing to 
play would work under that supervisor; and, in that case, that 
information would probably come through and go through the FBI.
    At the same time, we also see a huge need for 
infrastructure protection and other types of information that 
clearly should come from DHS; and there will be another desk 
for that, including both of our public agencies that need to be 
involved in infrastructure protection as well as our private 
agencies.
    So I think where you started to wrap up with is that it is 
a team. And where the conflict comes in is that the roles for 
the team overlap; and they overlap through congressional 
action, through laws. They overlap through administration's 
executive orders, and they overlap from the agencies themselves 
defining their mission so broadly that they overlap.
    What I really think would benefit all of us is not to 
create a single pipe. That will never work. There are too many 
agencies that have specific missions that need to interact with 
at the State and local level. What needs to happen is those 
pipes need to be defined.
    The Ambassador said, the lane is in the road; and that is a 
catchy phrase people are using now. We need to define who is 
doing what. It doesn't mean that the roles won't overlap, but 
we can define the leadership agencies, and I think that will 
clear up where information goes and how it is processed.
    Mr. Simmons. Any of the other of you? Pretty good answer, 
actually.
    Mr. Canas. From my point of view, Mr. Chairman, I agree 
with the Colonel.
    I have intelligence. I also have preparedness. DHS has its 
intelligence unit. It also has a larger role with FEMA and 
preparedness as well. So I believe that, for the investigations 
of counterterrorism, I believe the FBI has the lead on that and 
that that lead, to use the Colonel's words, should be with the 
FBI and they have primacy over investigations of 
counterterrorism.
    But things that don't meet that threshold, that are below 
that threshold, I think that falls into our area to 
investigate, the--all crimes, if you will, the home-grown, that 
may not meet the FBI's threshold. That is what I am encouraging 
DHS in our conversations with Mr.Allen about using our home-
grown information, someone to synthesize that information. No 
one is doing that right now.
    I believe that should be the DHS. I don't believe the FBI 
can handle that because, by their own admission, they are 
doing--they are the lead on counterterrorism. But synthesizing 
home-grown information, as I call it, or from the ground up, 
that is a broader--that would include open source. That would 
include a lot of things the FBI is not familiar with but the 
intelligence community is and DHS may--I believe should have 
the role on that. That is my opinion on that.
    Mr. Simmons. Does that fall into the area of building a 
national fusion center from your testimony?
    Mr. Canas. That is correct. That is the way I see it.
    Because what is missing out there is from a national 
perspective. Because we can do this for New Jersey, and the 
Colonel can do it for Illinois, and we should know about our 
own area. But what I know in New Jersey and what he knows in 
Illinois and what she may know in Virginia no one is taking 
that information and putting it on some virtual board that can 
be tapped into. As a result--because now the intelligence 
community and the military knows how to do this at the national 
threat level, but domestically that is a little dicier to do, 
and no one is doing it.
    But if people could synthesize that home-grown information 
I would submit to you from a national perspective we would know 
more about Des Moines, Iowa. Right now, we know more about 
Guatemala than we do about Des Moines, Iowa, from a Federal 
level; and the reason for that is no one is taking that 
information and putting it into a bucket and having analysts 
look at it from that perspective. That is not occurring. I 
submit that should be DHS.
    Mr. Simmons. I agree with you completely. That has been 
part of the struggle of creating and defining the 
responsibilities of the Chief Intelligence Officer of DHS and 
creating INA. Depending on how you do it, it no longer--well, 
depending on how you do it, the activities of those activities 
of DHS could disappear into the U.S. intelligence community, if 
you will. In many respects, that is considered not a solution 
but a problem.
    So it has been difficult from a jurisdictional and legal 
standpoint to try to define the Chief Intelligence Officer and 
his mission in the activities under his jurisdiction in such a 
fashion that he can be available to perform the tasks that we 
want him to perform for you and not get sucked into the U.S. 
intelligence community and essentially disappear from the face 
of the earth.
    Mr. Bouche. On that point, sir, could I add that one of the 
things that concerns us greatly in law enforcement is we don't 
want to become part of the intelligence community. The 
intelligence community doesn't want to become part of law 
enforcement.
    Mr. Simmons. No kidding.
    Mr. Bouche. Our roles are so distinctly different, yet we 
have a need to share, and we have a need to share relevant 
information. One of the roles that I believe Mr. Allen is 
starting to define and that I think is desperately needed is 
who is going to be the conduit between the intelligence 
community and law enforcement. And that is a DHS role. It is 
not an ongoing investigative role. It is a conduit role between 
the two. And actually the person who can draw the line because 
we--last thing I want is my officers acting on behalf of the 
intelligence community. But if there is an agency between the 
two that facilitates appropriate sharing that is a good role 
for DHS.
    Mr. Simmons. Would that fall into your comment about 
building bridges?
    Mr. Bouche. Yes, sir.
    Mr. Simmons. That is what I thought.
    Well, I want to thank you very, very much for coming here 
today, for sharing with us. A lot of the comments that you have 
made are right on the point of what we are trying to accomplish 
here.
    I have to say, looking back over the last 5 years, in some 
respects it has been exceedingly frustrating because things 
seem to be going very slowly. It seems to be very difficult to 
reorganize, restructure the processes, the rules of procedure, 
the equipment, so on and so on and so forth, which is so 
essential to secure the homeland.
    But, on the bright side, 6 years ago we wouldn't have this 
conversation. We wouldn't have this hearing. We wouldn't have 
the knowledge base of the three of you, which I would call an 
expert knowledge base on attacking this problem. Nobody would 
know much about it.
    So, in that regard, those 6 years ago we wouldn't have a 
committee like this or a subcommittee. So, in that regard, we 
have made progress, painful though it may be.
    But, before we close, I would like to ask each of you if 
you have anything you would like to offer for the good of the 
order that has not come out in the questions or the testimony 
thus far.
    Mr. Bouche. No, sir.
    Mr. Canas. No, thank you, Mr. Chairman.
    Mr. Simmons. That being the case, thank you very, very much 
for your testimony. Thank you for your dedication to these 
important issues. Thank you for your service to your 
communities, your State and to the country. Thank you all very 
much.
    Hearing adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
